       DEPARTMENT OF HEALTH &, HUMAN SERVICES	                                 Office of Inspector General


                                                                               Washington, D.C.	 20201




                                     AUG - 5 2009

TO:	          Charlene Frizzera
              Acting Administrator
              Centers for Medicare & Medic' -Services


FROM:          1::f&
            ~:;~~IInspector General for Audit Services
SUBJECT:	     Review of Termination Claim for Postretirement Benefit Costs Made by Blue
              Cross Blue Shield of Kansas (A-07-09-00310)


Attached is an advance copy of our final report on the termination claim for postretirement
benefit (PRB) costs made by Blue Cross Blue Shield of Kansas (Kansas). We will issue this
report to Kansas within 5 business days.

Kansas administered Medicare Part A and B operations under cost reimbursement contracts with
the Centers for Medicare & Medicaid Services (CMS) until the contractual relationship was
terminated effective February 29, 2008. ThroughoutHhe period of its Medicare contracts, Kansas
accounted for PRB costs using the pay-as-you-go method.

CMS reimburses a portion of its contractors' PRB costs. In claiming PRB costs, contractors
must follow cost reimbursement principles contained in the Federal Acquisition Regulation and
applicable Cost Accounting Standards as required by their Medicare contracts. On February 26,
2008, Kansas submitted a termination claim of $11 ,200,000 to seek reimbursement for future
PRB costs that it had not incurred prior to the termination of the Medicare contracts.

Our objective was to determine whether Kansas's termination claim for PRB costs associated
with Medicare Part A and B contracts was allowable for Medicare reimbursement.

Kansas's entire termination claim of$II,200,000 in PRB costs for the Medicare Part A and B
contracts was unallowable for Medicare reimbursement. The termination claim was calculated
based on a retroactive change in accounting practice without CMS approval. Therefore, and
pursuant to Kansas's Medicare contracts, none of the costs claimed were allowable.

We recommend that Kansas withdraw its termination claim of$II,200,000 for PRB costs
associated with Medicare Part A and B contracts.
Page 2 – Charlene Frizzera


In written comments on our draft report, Kansas did not agree with our finding or
recommendation. Kansas did not provide any additional information that would cause us to
revise our finding or recommendation. We maintain that Kansas should withdraw the full claim
amount.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov
or Patrick J. Cogley, Regional Inspector General for Audit Services, Region VII, at
(816) 426-3591 or through email at Patrick.Cogley@oig.hhs.gov. Please refer to report number
A-07-09-00310.
                                                                          Office of Inspector General
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Offices of Audit Services



                                                                          Region VII
                                                                          601
                                                                          60 1 East , 2th Street
                                                                          Room 284A
                                     AUG - 7 2009                         Kalls81lCily, Missouri 64106


Report Number:    A-07~09-00310


Mr. Ron Simmons
Controller
Blue Cross Blue Shield of Kansas
1133 SW Topeka Boulevard
Topeka, Kansas 66612

Dear Mr. Simmons:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
General (OIG), final report entitled "Review of Termination Claim for Postretirement Benefit
Costg, Made by Blue Cross Blue Shield of Kansas." We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.                                     .

Pursuant to the Freedom of Information Act, 5 U.S.c. § 552, OIG reports generally are made
available to the public to the extent that information in the report is not subject to exemptions in
the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-09-00310
in all correspondence.

                                               Sincerely,


                               ~.~            Patrick 1. Cogley
                                              Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Ron Simmons


Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Acting Director
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, Maryland 21244-1850
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




REVIEW OF TERMINATION CLAIM
FOR POSTRETIREMENT BENEFIT
 COSTS MADE BY BLUE CROSS
   BLUE SHIELD OF KANSAS




                    Daniel R. Levinson
                     Inspector General

                       August 2009
                      A-07-09-00310
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices

     THIS REPORT IS AVAILABLE TO THE PUBLIC
               at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Blue Cross Blue Shield of Kansas (Kansas) administered Medicare Part A and B operations
under cost reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS)
until the contractual relationship was terminated effective February 29, 2008. Throughout the
period of its Medicare contracts, Kansas accounted for postretirement benefit (PRB) costs using
the pay-as-you-go method.

CMS reimburses a portion of its contractors’ PRB costs. In claiming PRB costs, contractors
must follow cost reimbursement principles contained in the Federal Acquisition Regulation and
applicable Cost Accounting Standards as required by their Medicare contracts. On February 26,
2008, Kansas submitted a termination claim of $11,200,000 to seek reimbursement for future
PRB costs that it had not incurred prior to the termination of the Medicare contracts.

OBJECTIVE

Our objective was to determine whether Kansas’s termination claim for PRB costs associated
with Medicare Part A and B contracts was allowable for Medicare reimbursement.

SUMMARY OF FINDING

Kansas’s entire termination claim of $11,200,000 in PRB costs for the Medicare Part A and B
contracts was unallowable for Medicare reimbursement. The termination claim was calculated
based on a retroactive change in accounting practice without CMS approval. Therefore, and
pursuant to Kansas’s Medicare contracts, none of the costs claimed were allowable.

RECOMMENDATION

We recommend that Kansas withdraw its termination claim of $11,200,000 for PRB costs
associated with Medicare Part A and B contracts.

AUDITEE COMMENTS

In written comments on our draft report, Kansas did not agree with our finding or
recommendation. Kansas acknowledged that it had changed its accounting practice but did not
address the fact that it had not obtained CMS approval to do so.

Kansas’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

Kansas did not provide any additional information that would cause us to revise our finding or
recommendation. We maintain that Kansas should withdraw the full claim amount.




                                                i
                                                  TABLE OF CONTENTS

                                                                                                                                   Page

INTRODUCTION.....................................................................................................................1

          BACKGROUND ............................................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ..........................................................1
               Objective .............................................................................................................1
               Scope...................................................................................................................1
               Methodology .......................................................................................................1

FINDING AND RECOMMENDATION................................................................................2

          FEDERAL REQUIREMENTS.......................................................................................2

          UNALLOWABLE TERMINATION CLAIM ...............................................................3

          RECOMMENDATION ..................................................................................................3

          AUDITEE COMMENTS ...............................................................................................3

          OFFICE OF INSPECTOR GENERAL RESPONSE .....................................................3

APPENDIX

          AUDITEE COMMENTS




                                                                    ii
                                       INTRODUCTION

BACKGROUND

Blue Cross Blue Shield of Kansas (Kansas) administered Medicare Part A and B operations
under cost reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS)
until the contractual relationship was terminated and operations ceased effective February 29,
2008. Throughout the period of its Medicare contracts, Kansas accounted for the postretirement
benefit (PRB) costs associated with Medicare Part A and B contracts using the pay-as-you-go
method.

CMS reimburses a portion of its contractors’ PRB costs. In claiming PRB costs, contractors
must follow cost reimbursement principles contained in the Federal Acquisition Regulation
(FAR) and applicable Cost Accounting Standards as required by their Medicare contracts.

The Medicare contracts require that costs be estimated (budgeted), accumulated, and reported on
a consistent basis and that any change in accounting practice be submitted to CMS in advance for
approval. Furthermore, the FAR sets forth the allowability requirements and the three methods
of accounting for PRB costs that are permitted under a Government contract.

On February 26, 2008, Kansas submitted a termination claim of $11,200,000 to seek
reimbursement for future PRB costs that it had not incurred prior to the termination of the
Medicare contracts.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Kansas’s termination claim for PRB costs associated
with Medicare Part A and B contracts was allowable for Medicare reimbursement.

Scope

At the request of CMS, we audited the PRB termination claim of $11,200,000 that Kansas
submitted for the Medicare Part A and B contracts’ PRB costs. Achieving our objective did not
require that we review Kansas’s overall internal control structure. However, we reviewed the
internal controls related to the PRB termination claim to determine whether the claim was
allowable in accordance with the FAR and the Medicare contracts.

Methodology

We examined Kansas’s PRB claim in relation to applicable laws, regulations, and other Federal
requirements. We also reviewed information presented in Kansas’s termination claim, which
included support provided by Kansas.




                                                1
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                            FINDING AND RECOMMENDATION

Kansas’s entire termination claim of $11,200,000 in PRB costs for the Medicare Part A and B
contracts was unallowable for Medicare reimbursement. The termination claim was calculated
based on a retroactive change in accounting practice without CMS approval. Therefore, and
pursuant to Kansas’s Medicare contracts, none of the costs claimed were allowable.

FEDERAL REQUIREMENTS

FAR 31.205-6(o) sets forth the requirements and applicable methods of accounting for PRB
costs under a Government contract. PRB costs may include, but are not limited to,
postretirement health care; life insurance provided outside a pension plan; and other welfare
benefits, such as tuition assistance, daycare, legal services, and housing subsidies provided after
retirement. PRB costs do not include retirement income and ancillary benefits, such as life
insurance, that pension plans pay following employees’ retirement.

FAR 31.205-6(o)(2) requires contractors to use one of three methods for measuring and
assigning PRB costs to accounting periods:

   •   The cash basis (or pay-as-you-go) method recognizes PRB costs when they are paid.

   •   The terminal funding method recognizes the entire PRB liability as a lump-sum payment
       upon termination of employees. The lump-sum payment must be remitted to an insurer
       or trustee for the purpose of providing PRBs to retirees and is allowable if amortized over
       15 years.

   •   The accrual method measures and assigns costs according to generally accepted
       accounting principles and pays costs to an insurer or trustee to establish and maintain a
       fund or reserve for the sole purpose of providing PRBs to retirees. The accrual must be
       calculated in accordance with generally accepted actuarial principles and practices as
       promulgated by the Actuarial Standards Board.

The Medicare contract, Appendix B, section II(A), requires that costs be estimated (budgeted),
accumulated, and reported on a consistent basis. In addition, CMS issued to Medicare
contractors the “Budget and Performance Requirements” (BPR), section VI(B), which states that
“as regards the allocation of such costs to the Medicare contract/agreement . . . [a]ny change in
accounting practice for such pension and/or post-retirement benefit costs must be submitted to
CMS in advance for approval.” The BPR further defines a change in accounting practice to




                                                 2
include “a change from cash (pay-as-you-go) accounting to accrual accounting . . . .” In
response to our prior reviews of PRB termination claims, CMS agreed that the Medicare
contracts do not permit retroactive changes in accounting practices without advance CMS
approval; accordingly, CMS issued cost disallowances on that basis.

UNALLOWABLE TERMINATION CLAIM

Kansas’s contractual relationship with CMS was terminated on February 29, 2008. On
February 26, 2008, Kansas submitted a termination claim of $11,200,000 to seek reimbursement
for future PRB costs that Kansas had not recognized prior to the termination of the Medicare
contracts.

Throughout the entire period of its Medicare contracts, Kansas claimed PRB costs for the
Medicare Part A and B contracts using the pay-as-you-go method. By selecting this method,
Kansas signified that, pursuant to the FAR and its Medicare contracts, it would be reimbursed
only for actual paid claims during each year.

Kansas based its termination claim for PRB costs on a retroactive change in its contract cost
accounting practice from the pay-as-you-go method to the accrual method. Kansas did not
obtain CMS approval before making this change, as required by the BPR. Therefore, Kansas’s
claimed reimbursement for $11,200,000 in PRB costs was unallowable.

RECOMMENDATION

We recommend that Kansas withdraw its termination claim of $11,200,000 for PRB costs
associated with Medicare Part A and B contracts.

AUDITEE COMMENTS

In written comments on our draft report, Kansas did not agree with our finding or
recommendation. Nevertheless, Kansas acknowledged that it used the pay-as-you-go method
during the contract period and that it used the accrual method to calculate its termination claim.
Kansas did not address the fact that it had not obtained CMS approval before changing its
accounting practice.

Kansas’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

Kansas did not provide any additional information that would cause us to revise our finding or
recommendation. We maintain that Kansas should withdraw the full claim amount.




                                                 3
APPENDIX
APPENDIX
 Page 1 of 2
APPENDIX
 Page 2 of 2
